     Management Advisory Report



 Single Audit of the State of New
Hampshire for the Fiscal Year Ended
          June 30, 2013




       A-77-14-00015 | August 2014
Single Audit of the State of New Hampshire for the Fiscal Year
Ended June 30, 2013
A-77-14-00015
August 2014                                                                Office of Audit Report Summary

Objective                                  Findings

To report internal control weaknesses,     The single audit reported:
noncompliance issues, and
unallowable costs identified in the           Invoices did not always specify which grant year the
single audit to the Social Security            expenditures were charged. As a result, the auditor could not
Administration (SSA) for resolution            verify the proper charging of expenditures.
action.
                                              Verifications of consultative examination (CE) providers’
Background                                     licensure, credentials, and certifications were not always
                                               documented including the required match of medical licenses
KPMG, LLP conducted the single                 with the Department of Health and Human Services’ List of
audit of the State of New Hampshire.           Excluded Individuals and Entities.
SSA is responsible for resolving single
audit findings related to its Disability   Recommendations
programs. The Department of
Education is the New Hampshire             We recommend that SSA:
Disability Determination Services’
                                           1. Confirm the DDS has a process in place to charge expenditures
(DDS) parent agency.
                                              to the correct grant identification number.

                                           2. Verify the DDS has appropriate procedures to document the
                                              reviews of CE provider licensure, credentials, and certifications.
MEMORANDUM
Date:      August 5, 2014                                                              Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of New Hampshire for the Fiscal Year Ended June 30, 2013
           (A-77-14-00015)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of New Hampshire for the Fiscal Year ended June 30, 2013. 1 Our objective was to report
           internal control weaknesses, noncompliance issues, and unallowable costs identified in the single
           audit to SSA for resolution action.

           KPMG, LLP conducted the audit. The results of the desk review conducted by the Department
           of Health and Human Services (HHS) concluded that the audit met Federal requirements. In
           reporting the results of the single audit, we relied entirely on the internal control and compliance
           work performed by KPMG, LLP and the reviews performed by HHS. We conducted our review
           in accordance with the Council of the Inspectors General on Integrity and Efficiency’s Quality
           Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The New Hampshire Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal regulations. The
           DDS is reimbursed for 100 percent of allowable costs. The Department of Education is the New
           Hampshire DDS’ parent agency.




           1
            State of New Hampshire, Single Audit of Federal Financial Assistance Programs for the Year Ended
           June 30, 2013, http://www.admin.state.nh.us/accounting/annual_financial_reports.asp (last viewed July 17, 2014).
Page 2 - Gary S. Hatcher

The single audit reported:

      Invoices did not always specify which grant year the expenditures were charged. 2 As a
       result, the auditor could not verify the proper charging of expenditures. The corrective action
       plan indicates all invoices now have the grant identification number.

      Verifications of consultative examination (CE) providers’ licensure, credentials, and
       certifications were not always documented including the required match of medical licenses
       with HHS’ List of Excluded Individuals and Entities. 3 The corrective action plan indicates
       the DDS now maintains time-stamped files to document all reviews of CE provider’s
       licensure, credentials, and certifications.

We recommend that SSA:

1. Confirm the DDS has a process in place to charge expenditures to the correct grant
   identification number.

2. Verify the DDS has appropriate procedures to document the reviews of CE provider’s
   licensure, credentials, and certifications.

In addition, the single audit reported ineffective general information technology controls related
to the payroll system. 4 Specifically, privileged access was granted to users that did not properly
align with their assigned roles, system enforced password parameters were not in place,
terminated user access was not removed from the system timely, documentation of formal testing
and authorization of changes was not maintained, and documentation of the backup process was
not available. The corrective action plan outlines several changes designed to strengthen
controls. The single audit identified multiple Federal programs, including SSA, responsible for
resolving this finding. However, HHS will resolve this finding on the Government’s behalf.
Therefore, we are bringing this matter to your attention, but we are not making a
recommendation.

Finally, the single audit reported that NH-DE did not consistently maintain detailed
documentation to support cash draws for DDS administrative expenses. 5 We made a
recommendation to SSA in a prior report for corrective action on this finding. 6 We confirmed
that SSA took the appropriate corrective action to address this finding. The corrective action
occurred subsequent to the auditor reporting the finding in the current single audit. Therefore,
we will not repeat the recommendation.


2
    Id. at finding 2013-055.
3
    Id. at finding 2013-056.
4
    Id. at finding 2013-002.
5
    Id. at finding 2013-049.
6
 SSA OIG, Management Advisory Report, Single Audit of the State of New Hampshire for the Fiscal Year Ended
June 30, 2012 (A-77-14-00001) November 2013.
Page 3 - Gary S. Hatcher

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, please contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                            Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
